WAIVER
Supreme Court of the United States
No. 20-574
Joseph B. Scarnati, III, et al.
(Petitioners)

v.

Pennsylvania Democratic Party, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
0

Please enter my appearance as Counsel of Record for all respondents.

ci There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Potter County Board of Elections

I am a member of the Bar of the Supreme Court of the United States.
11 I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar membey.

O

Signature

P-SI\

u /11762o

Date:
(Type or print) Name

Thomas R. Shaffer
pi Mr.
0 Ms.

0 Mrs.

0 Miss

Firm G,lassmire and Shaffer Law Offices, P.C.
Address

5 East Third Street

City & State

Coudersport, PA

Phone

814-274-7292

Zip 1691c

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Holtzman Vogel Josefiak Torchinsky PLLC
Cc:
Crystal H. Clark
Chalmers & Adams
RECEIVED
LLC

NOV 1 2 2020
JRK
wegr815gl U.S.

Obtain status of case on the docket. By phone at 202-479-3034 or via the
http://www.supremecourtus.gov. Have the Supreme Court docket numbe avai a

